CERTIFICATION OF SERVICE
The petitioner certifies pursuant to US SC Rule-29 that he served the within Motion for leave to
proceed in forma pauperis and petition for writ of certiorari to the court of appeal for the Sixth circuit on
counsel for the respondent by enclosing a copy thereof in an envelope with postage prepaid and addressed
too:

1.

The Office of the Michigan Attorney General
Appellate Division
PO BOX: 30217
Lansing, Michigan 48909

And too:
2.

The Solicitor General of the United States
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530

By deposing them in the Michigan Department of Corrections Institutional Mailing system on

?-/3l- , 2020 and further certifies that all parties required to be served have been
served.
DECLARATION OF SERVICE

SUBMITTED BY:

The petitioner certify under 28
USC 1746 that a copy of this
document was served to all
parties by U.S. Mail.

ROWMOTO ROGERS #579788

DATED:

14.

^

_, 2020

